.

i. 11

IN THE
SUPREME COURT OF THE UNITED STATES
RUBEN SANCHEZ.
Petitioner

"UNITED STATES OF AMERICA, ET AL,"
Respondents.
ON PEITION FOR A WRIT OF CERTIORARI TO
THE SEVENTH CIRCUIT COURT OF APPEALS
No. 19-1836
PETITION FOR WRIT OF CERTIORARI

FILED
AUG 1 5 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

/

RUBEN SANCHEZ, PRO SE
9380 Rreiter
Chicago, IL 60617
(312) 909-8612
n

I.
1.

QUESTIONS PRESENTED

Does a Pro Se plaintiff have the right to appointment of counsel for the purpose of

amending a complaint, which complaint sought to challenge the doctrine of "immunity"
for state actors who violate their oaths by ignoring and belittling poor, uneducated and
marginalized defendants who lack advantages of money, education and status and are
therefore considered otherwise undeserving of respect?
2.

Is an action brought to challenge the scope of "immunity" for state actors an

appropriate cause of action for a federal court to consider?

1

II.

TABLE OF CONTENTS

I.

Questions Presented

II.

Table of Contents

ii

III.

Table of Authorities

iii

IV.

Petition for Writ of Certiorari

1

V.

Opinions Below

1

VI.

Jurisdiction

1

VII.

Constitutional Provisions Involved

1

i

VIII. Statement of the Case

.2

IX.

Reasons for Granting the Writ

4

X.

Conclusion

8

XI.

Appendix

App.001

n

1

III.

TABLE OF AUTHORITIES
CASES

San Antonio v. Rodriguez, 411 U.S. 1 (1973)

4

Griffin v. Illinois, 351 U,S. 12 (1956)

4

Bearden v. Georgia, 461 U.S. 660 (1983)

4

Pepsico, Inc. v. McMillen, 764 F.2d 458 (7th Cir. 1985)

6

Supreme Court of Virginia v. Consumers Union of the United States,
446 U.S. 719 (1980)................................'...............................

7

Pulliam v. Allen, 466 U.S. 522 (1984)

7

STATUTES

42. U.S.C. §§ 1983, 1985, 1986

1

28 U.S.C. §§ 1343, 1367

1

28 U.S.C. § 1291

1

18 U.S.C. §§ 1961-1968

4

CONSTITUTIONAL PROVISIONS
United States Constitution, Amendment V

1

United States Constitution, Amendment VI

2

United States Constitution, Amendment XIV

2

m

IV.

PETITION FOR WRIT OF CERTIORARI

Ruben Sanchez, an indigent citizen of the United States and the State of Illinois,
respectfully petitions this Court for a writ of certiorari to review the judgment of the Seventh
Circuit Court of Appeals.
V.

OPINIONS BELOW

The decision by the Seventh Circuit Court of Appeals denying his appeal from the
summary dismissal of his complaint in the District Court for the Northern District of Illinois is a
"nonprecedential disposition decided by Order of March 20, 2020. That Order is attached at
Appendix ("App.") at 001-003.
VI.

JURISDICTION

My case was a claim for violation of my civil rights as protected by the Constitution and
the laws of the United States under 42. U.S.C. §§ 1983, 1985 and 1986. The district court had
jurisdiction under 28 U.S.C. §§ 1343 and 1367.
The Seventh Circuit had jurisdiction of my appeal because it is from a final decision of the
district court entered on April 12, 2019.1 appealed on April 29, 2019. (28 U.S.C. § 1291).
My appeal to the Seventh Circuit was denied on March 20, 2020.1 invoke the jurisdiction
of this Court under 28 U.S.C. §1257 and the Covid-19 extension granted by this Court, having
timely filed this petition for a writ of certiorari within ninety days of the judgment of the Seventh
Circuit plus the extra time provided for due to the Covid-19 pandemic.
VI.

CONSTITUIONAL PROVISIONS INVOLVED

Amendment V

No person shall be held to answer for a capital, or otherwise infamous crime, unless on a
presentment or indictment of a grand jury, except in cases arising in the land or naval forces, or
in the militia, when in actual service in time of war or public danger; nor shall any person be

1

subject for the same offense to be twice put in jeopardy of life or limb; nor shall be compelled in
any criminal case to be a witness against himself, nor be deprived of life, liberty, or property,
without due process of law; nor shall private property be taken for public use, without just
compensation.

Amendment VI

In all criminal prosecutions, the accused shall enjoy the right to a speedy and public trial, by an
impartial jury of the state and district wherein the crime shall have been committed, which
district shall have been previously ascertained by law, and to be informed of the nature and cause
of the accusation; to be confronted with the witnesses against him; to have compulsory process
for obtaining witnesses in his favor, and to have the assistance of counsel for his defense.

Amendment XIV
Section 1.

All persons born or naturalized in the United States, and subject to the jurisdiction thereof, are
citizens of the United States and of the state wherein they reside. No state shall make or enforce
any law which shall abridge the privileges or immunities of citizens of the United States; nor
shall any state deprive any person of life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal protection of the laws.

VIII. STATEMENT OF THE CASE
I, RUBEN SANCHEZ, filled out the pro se form complaint for violation of constitutional
rights and filed it on September 18, 2018 in the district court. I admit I cannot spell very well but
I was trying to sue judges and lawyers of the federal court and state court as well as the police in
Cook County and their union, the FOP.
I allege that for at least an eight year period, from May 15, 2010 to September 18, 2018
my rights were violated due to excessive force being used against me by police; lawyers I had
and judges I appeared before failed to protect me from violations of my civil rights and conspired

2

to violate my civil rights. Instead. I was charged in several cases with crimes I did not commit
and prevented from addressing concerns about the violation of rights of others.
In my addendum to the complaint. I identified at least one specific case in which an
elderly neighbor was taken from her home, in effect kidnapped, and I was not even allowed to
address the court about it. I also identified a case in which a fellow to whom I loaned by bike
was arrested for riding the bike and tried to commit suicide in jail, and I was not even contacted
to say he had my permission to use the bike.
Because I was a pro se plaintiff trying to appeal the 7th Circuit's affirmance of a jury
verdict in favor of police who beat me, the clerk of the U.S. Supreme Court refused to allow me
to file my petition for certiorari even though the due date was a federal holiday and I filed the
following day. In that same case, at the trial level, defendants destroyed evidence (tapes of my
arrest and beating) and Judge Chang did not allow me to introduce evidence of a police report
showing I had been beaten and was not drunk, which this Court on appeal said was an error but
apparently a "harmless one" even though it was the only corroborating evidence of my
testimony. In the same case, a potential juror who also had only a pre-high school education like
me was denied the right to sit as my juror because Judge Chang thought he couldn't understand
the case, which was just a question of whether I was beaten by a cop and whether I was
improperly arrested. False testimony was given in that case as well by both the police and jail
guard.
Similarly, in an administrative proceeding, my confiscated van was allowed to be destroyed by
the police with no compensation.
I also referred to other state cases in which attorneys deserted me and judges simply
railroaded cases through because of my marginalized status, as a disabled and poor litigant.

3

I contend that the judges involved as well as certain lawyers and police abuse their power
to hide and distort the truth, and then claim "immunity" when they are required to answer for that
abuse. Under the cloak of immunity, they engage in acts that would ordinarily be considered
violations of the RICO statute, as 18 U.S.C. §§ 1961-1968.
IX.
A.

REASONS FOR GRANTING THE WRIT

The Equal Protection Clause forbids discrimination.

This Court, in the San Antonio v. Rodriguez, 411 U.S. 1 (1973) held that discrimination
based on race is forbidden but did not find that differences in wealth are necessarily
unconstitutional. However, I understand that the Supreme Court recognizes that discrimination
against the poor is not allowed, especially in the criminal justice system. See, Griffin v. Illinois,
351 U,S. 12 (1956) ("In criminal cases, a state can no more discriminate on account of poverty
than on account of religion, race, or color,"); Bearden v. Georgia, 461 U.S. 660 (1983) (A judge
cannot imprison someone because “through no fault of his own, he cannot pay the fine.”)
These same principles apply to me. I want the chance to prove that there is discrimination
against poor people in the administration of justice, and against the relatively uneducated as well.
The Seventh Circuit upheld Judge Chang's dismissal of my case, without even letting me amend
and without appointing counsel, is a violation of my right to equal protection. I believe I can
show a systematic case of discrimination against me, and I should at least be given the chance to
go forward. Maybe I lose, but maybe I don't.
B.

One Man's Frivolousness is Another Man's Seriousness
The trial court, Judge Chang, dismissed my complaint because he said it was unclear who

I was suing, and that the "allegation of a widespread conspiracy is fanciful." He also said that "no
attorney can fix this complaint." Apparently the Seventh Circuit agreed, App. p. 2.

4

First, with the help of a lawyer, I can make clear who I am suing. I know I don't write
well and have terrible spelling. With the help of a lawyer who has access to a computer, spell
check can work wonders (as using the help of a friend who has a computer in writing this brief
shows). So why not at least give me the chance to be clearer with the appointment of a lawyer
and the opportunity to amend?
Second, we went to war in Iraq because the government was supposed to have had
"weapons of mass destruction." There was a widespread conspiracy or coordinated action by lots
of government officials and others to push that scary weapons theory to justify a war in Iraq. But
it was exposed in the end as just that; a widespread conspiracy to promote a false theory. And
even just a few years ago, we would have thought it "fanciful" that a foreign power could
infiltrate our elections and spread misinformation to confuse the public - but that is what almost
everyone now knows to be true.
So is it so fanciful for me to allege a widespread conspiracy to thwart my rights in light of
my status as a poor and relatively formally uneducated person? I believe that if allowed to
proceed, I will be able to show that judges and the police are aware of me, that such information
is shared and I am the subject of discrimination as a result. And that I am not the only one.
C.

Judge Chang Should Not Be the One Making the Decision on My Complaint
Judge Chang is one of the specific judges I identify in the Complaint It is at least an

appearance of impropriety for Judge Chang to then be the judge deciding that my case is
"frivolous" and incapable of being amended. He should have recused himself instead of simply
dismissing the case without any possibility of amending. I understand that the test for the
appearance of impropriety is "whether an objective, disinterested observer fully informed of the
facts underlying the grounds on which recusal was sought would entertain a significant doubt

5

that justice would be done in the case" PepsiCo, Inc. v. McMillen, 764 F.2d 458, 460 (7th Cir.
1985) 1 submit that the observer would be troubled by a judge dismissing a case, without
appointing counsel or allowing amendment, when that judge is one of the parties mentioned as a
potential or intended defendant. I did not know Judge Chang was going to dismiss the case
outright. I applied for leave to proceed in forma pauperis, and the next thing that happens is the
judge both denies that application and dismisses the case. I did not even have a chance to file a
motion for Judge Chang to recuse himself before the case was dismissed. That was not right, and
requires reversal of the dismissal.
D.

The Question of Immunity Needs to Be Addressed
I understand that even a Supreme Court Justice has serious doubts about "immunity." I

am told that Justice John Paul Stevens, in his recent book "The Making of a Justice," 2019,
believed that the decision that troubled him most in his 40 years on the Supreme Court was
allowing states to claim " sovereign immunity." But somehow the doctrine of judicial immunity
has been allowed to go on uncritically. That should not be. In every other aspect of life, people
are held accountable for their actions when they cross a certain line. My complaint is that judges,
police, and some lawyers, have crossed the line when it comes to ignoring, disrespecting and
acting to limit and violate my rights in my specific situation, and that I am not the only one. I
accept that judge should not be sued for every decision they make. But when there is a "long
train of abuses ... pursuing the same Object," a line has been crossed. (Declaration of
Independence) My complaint tries to allege that a line has been crossed. I may not have
expressed it very clearly, but with the help of an appointed attorney I believe I could do so.
"Immunity" should not be used to cover up the violation of rights. I should be allowed to state
and pursue my case, and for a jury to decide if I am right about that line-crossing.

6

1 understand that judicial immunity is not absolute. I have been informed that this Court
has held that a judge may be enjoined from enforcing a court rule, such as a restriction on lawyer
advertising, that violates the First Amendment. Supreme Court of Virginia v. Consumers Union
of the United States, 446 U.S. 719 (1980). I also have been informed that a state court magistrate
may be enjoined from “imposing bail on persons arrested for nonjailable offenses under Virginia
law and . . . incarcerating those persons if they could not meet the bail. . . .” Pulliam v. Allen, 466
U.S. 522, 524-25 (1984) And I have been informed that "judicial immunity" is not effective to
deny an award of attorneys’ fees under the Civil Rights Attorney’s Fees Awards Act of 1976.
Pulliam, above, at 544.
It boils down to this: The District Court should have allowed the appointment of counsel
to represent me so that my complaint could be put in proper form, and the Seventh Circuit should
have reversed the dismissal and allowed me to proceed. This case concerns the right of a pro se
plaintiff to have assistance so that his case can be heard; a case that challenges and questions the
boundaries and limits of the doctrine of immunity. The Seventh Circuit should have required
the District Court to appoint counsel and allow an amendment to clarify my claims, especially
since the judge dismissing my case was one of the judges charged with violating my rights. This
Court needs to look seriously at the issue of "immunity," which is being used to cover up
injustice, which brings the whole judicial system into disrepute. And finally, I should be allowed
to prove that there is a conspiracy or collusion or shared prejudice among courts, lawyers and
police against those who are poor, have limited education and are otherwise marginalized, using
my situation in specific instance and not just thrown out of court simply because I don't know the
niceties of the law and its procedures. The 14th Amendment talks about "equal protection of the
law," but that is not happening, and I hope that this Court will allow me to proceed. Some of the

7

specifics and my personal rough notes are included in the Appendix to this Petition at pp. 004 013.
X.

CONCLUSION

For the reasons stated above, I am asking this Court to issue a writ of certiorari to review
the Order of the Seventh Circuit Court of Appeals, and to appoint counsel to represent me.

Respectfully Submitted,

Ruben Sanche:
Pro Se

9380 Kreiter
Chicago, IL 60617
(312) 909-861

8

